                                                                 Issue Date
                                                                          January 9, 2012
                                                                 Audit Report Number
                                                                          2012-AT-1004




TO:        Mary D. Presley, Director, HUD Atlanta Office of Community Planning and
            Development, 4AD

           //signed//
FROM:      James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: DeKalb County, GA, Had Inadequate Controls Over the Support for
          Commitments Entered in HUD’s Information System


                                   HIGHLIGHTS

 What We Audited and Why

             We audited DeKalb County’s HOME Investment Partnerships Program. We selected
             the County for review because it had received more than $8 million in HOME
             funding since 2008. Our objective was to determine whether the County accurately
             entered commitments and project completion data into the U.S. Department of
             Housing and Urban Development’s (HUD) Integrated Disbursement and
             Information System for HOME-funded activities.

 What We Found


             The signatures of all parties who signed the written agreements for more than $3.6
             million in commitments tested during the audit were not dated as required. The
             dates were needed to support whether the commitments were made within the 24-
             month statutory deadline. The County provided supplemental documentation,
             which HUD agreed to accept as support that six of the seven activities reviewed
             were committed by the deadline date. We identified one activity in which the
             County incorrectly entered a $230,000 commitment into the information system
             before its deadline date, although the funds were committed after the deadline.
           The incorrect entry did not generate a commitment shortfall, and, therefore, the
           $230,000 is not subject to recovery by HUD. However, the signatures that were
           not dated and the incorrect commitment entry could undermine the integrity of the
           information system and jeopardize the accuracy and support of reports that HUD
           generates from the system to monitor the County’s compliance with the 24-month
           statutory commitment requirement and compile national program statistics.

           The audit did not reveal any problems with the accuracy of project completion
           data that the County entered into the information system.

What We Recommend

           We recommend that the Director of HUD’s Atlanta Office of Community Planning
           and Development require the County to implement controls to ensure that (1) all
           signatures on future written agreements that commit HOME funds are dated to
           support when the commitments were made and (2) commitments are not entered into
           the information system before the written agreements are executed.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-3. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We discussed the finding with the County and HUD officials during the audit. On
           December 14, 2011, we provided a copy of the draft report to County officials for
           their comment and discussed the report with them at the exit conference on
           December 19, 2011. The County provided its written comments to the draft report on
           December 29, 2011. The County generally agreed with the finding.

           The complete text of the County’s response, along with our evaluation of that
           response, can be found in appendix A of this report.




                                            2
                           TABLE OF CONTENTS


Background and Objective                                                  4

Results of Audit
      Finding: The County Had Inadequate Controls Over the Support for    5
               Commitments Entered into HUD’s Information System

Scope and Methodology                                                     8

Internal Controls                                                        10

Appendix
   A. Auditee Comments and OIG’s Evaluation                              11




                                           3
                      BACKGROUND AND OBJECTIVE

The HOME Investment Partnerships Program was created by Title II of the Cranston-Gonzalez
National Affordable Housing Act of 1990. Under the HOME program, the U.S. Department of
Housing and Urban Development (HUD) allocates funding to eligible local and State
governments to strengthen public-private partnerships and supply decent, safe, and sanitary
affordable housing to very low-income families. Participating jurisdictions may use HOME
funds to carry out multiyear housing strategies through acquisition, rehabilitation, new
construction, and tenant-based rental assistance. For program years 2008 through 2010, HUD
awarded DeKalb County, GA, more than $8.7 million in HOME funding. The County operates
under an elected chief executive officer and county commission form of government. The
County is comprised of various departments, which include the Department of Community
Development, which administers the County’s HUD-funded HOME program.

HUD requires grantees to enter HOME commitments into its Integrated Disbursement and
Information System. HUD uses the information system to monitor compliance with HOME
requirements for committing funds. HUD also uses the information system to generate reports
used within and outside HUD, including the public, participating jurisdictions, and Congress.

HUD’s Office of Community Planning and Development in Atlanta, GA, is responsible for
overseeing the County’s HOME program. HUD’s most recent monitoring report on the
County’s HOME program, dated June 2009, did not include a review of the accuracy of
commitment entries that the County made to the information system.

Our objective was to determine whether the County accurately entered commitments and project
completion data into the information system for HOME-funded activities.




                                               4
                                RESULTS OF AUDIT

Finding: The County Had Inadequate Controls Over the Support for
Commitments Entered into HUD’s Information System
The County did not require that the signatures of all parties who signed written agreements be
dated to support whether the commitments were made within the 24-month statutory deadline.
This occurred because the County did not have procedures to ensure that the signatures on the
written agreements were dated. The County provided supplemental documentation, which HUD
agreed to accept as support that six of the seven activities reviewed were committed by the
deadline date. We identified one activity in which the County incorrectly entered a $230,000
commitment into the information system before its deadline date, although the funds were
committed after the deadline. The incorrect commitment entry is not subject to recovery by
HUD because it did not generate a commitment shortfall. However, the signatures that were not
dated and the incorrect commitment entry could undermine the integrity of the information
system and jeopardize the accuracy and support of reports that HUD generates from the system
to monitor the County’s compliance with the 24-month statutory commitment requirement and
compile national program statistics.



 Written Agreements Without
 Dated Signatures
               The County did not require that the signatures of all parties who signed written
               agreements be dated to support when it committed more than $3.6 million for all
               seven activities tested during the audit. The review covered the period July 2009
               through June 2011. During this period, the County commited more than $6.3
               million in HOME funds. We selected and reviewed commitments of more than
               $3.6 million for seven of the County’s largest funded activities. All of the
               agreements reviewed in our sample contained one or more signatures that were not
               dated. Title II of the Cranston-Gonzalez National Affordable Housing Act, section
               218(g), and 42 U.S.C. [United States Code] 12748(g) provide that a participating
               jurisdiction’s right to draw funds from its HOME Investment Trust Fund shall
               expire if the funds are not placed under binding commitment to affordable housing
               within 24 months after the last day of the month in which such funds are deposited
               into the participating jurisdiction’s HOME Investment Trust Fund. Without the
               dates, we could not determine whether the agreements were executed before or
               after the County’s June 30, 2011, 24-month commitment deadline. This condition
               occurred because County officials did not have procedures in place to ensure that
               the signatures on the written agreements were dated. They stated that they were not
               aware of the HUD guidance that required the signatures to be dated.




                                               5
           CPD (Community Planning and Development) Notice 07-06, section VII(B),
           provided that the signatures of all parties signing the agreement or contract must be
           dated to show the execution date. The notice expired in June 2008, but HUD still
           used it as guidance. Participating jurisdictions should have required the dates to
           support when the agreements were executed and document whether the
           commitments occurred by the 24-month statutory commitment deadline. This
           position is consistent with 24 CFR (Code of Federal Regulations) 92.2, which
           defines commitment as an executed, legally binding agreement to use a specific
           amount of HOME funds to produce affordable housing or provide tenant-based
           rental assistance, an executed written agreement reserving a specific amount of
           funds to a community housing development organization, or having met the
           requirements to commit to a specific local activity.

           Due to the missing signature dates on the written agreements, we requested and the
           County provided additional supplemental documentation in an attempt to determine
           whether the agreements were executed before the County’s most recent 24-month
           commitment deadline, June 30, 2011. The County provided documentation that
           included but was not limited to signature routing slips, sworn affidavits, and emails.
           The supplemental documents indicated that all but one of the seven agreements,
           discussed below, were executed before the June 30, 2011, commitment deadline.
           We provided and discussed the supplemental data with HUD’s Atlanta Office of
           Community Planning and Development officials. The Director of the Office of
           Community Planning and Development stated that HUD would accept the
           documentation as support that the written agreements were executed before the 24-
           month commitment deadline for six of the activities.

Written Agreement Executed
After Deadline

            The County committed $230,000 in the information system for activity 3189,
            although the commitment (written agreement) did not occur until after its 24-
            month statutory commitment deadline, June 30, 2011. The written agreement was
            missing the signature dates, which were needed to determine when the
            commitments occurred. However, the County provided a routing slip indicating
            that the written agreement was not signed by all County officials until
            July 11, 2011, or 11 days after the commitment deadline. The County provided
            documentation indicating that the board of commissioners approved the
            commitment on June 14, 2011. The regulatory definition of commitment is based
            on the date of the executed written agreement. We recognize that the County had
            authorization to execute the written agreement before the deadline date, but it did
            not execute the agreement until after the deadline. The incorrect entry did not
            generate a commitment shortfall, and, therefore, the $230,000 is not subject to
            recovery by HUD.




                                             6
Conclusion


             The signatures that were not dated and the incorrect commitment entry could
             undermine the integrity of the information system and jeopardize the accuracy
             and support of reports that HUD generates from the system to monitor the
             County’s compliance with the 24-month statutory commitment requirement and
             compile national program statistics.


Recommendations


             We recommend that the Director of HUD’s Atlanta Office of Community
             Planning and Development require the County to develop and implement controls
             to ensure that

             1A. All signatures on future HOME agreements are dated to support the
                 commitment of funds entered into HUD’s information system.

             1B. Commitments are not entered into the information system before the execution
                 of written agreements.




                                             7
                        SCOPE AND METHODOLOGY

We performed the audit from July through November 2011 at the County’s Community
Development Department and the HUD Office of Community Planning and Development in
Atlanta, GA.

We did not review and assess general and application controls for computer-processed data that
the County entered into HUD’s information system for commitments. We conducted other tests
and procedures to ensure the integrity of computer-processed commitments that were relevant to
the audit objective. Specifically, we examined written agreements to determine the accuracy of
commitments that the County entered into the information system. We identified one instance,
discussed in the finding, in which the County entered an incorrect commitment into the
information system before the written agreement was executed.

The review generally covered the period July 1, 2009, through June 30, 2011. To accomplish
our objective, we

       Researched HUD handbooks, the Code of Federal Regulations, and other requirements
       and directives that govern the commitment of HOME program funds.

       Obtained and reviewed reports from HUD’s information system.

       Reviewed HUD’s monitoring reports and files for the County’s HOME program.

       Reviewed the County’s consolidated annual performance and evaluation reports for its
       HOME program.

       Reviewed the County’s procedures and controls used to administer its HOME program
       activities relative to commitments.

       Interviewed officials of the Atlanta HUD Office of Community Planning and
       Development and the County.

       Obtained and reviewed the County’s audited financial statements, project files, policies,
       and procedures.

       Conducted tests to determine whether the County entered accurate project completion
       data into the information system. We selected a sample of 11 of 27 activities that had
       funding of at least $175,000 and were reported as completed in the information system.
       The 11 activities had funding that totaled more than $9.7 million.

       Conducted tests to determine the County’s compliance with HOME fund commitment
       requirements. During the review period, July 1, 2009, through June 30, 2011, the County
       committed more than $6.3 million in HOME funds, of which we examined $3.6 million
       for seven activities. The sample covered 58 percent of the total funds committed during
                                                8
       the review period. We limited the sample to commitments that equaled or exceeded
       $200,000 to cover the most significant commitment amounts. The results of the audit
       apply only to the tested activities and cannot be projected to the universe or total
       population.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.




                                               9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.
Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Policies and procedures that management has implemented to reasonably
                      ensure that resource uses are consistent with laws and regulations.

                      Policies and procedures that management has implemented to reasonably
                      ensure that resources are safeguarded against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

                      The County did not have controls in place to ensure that all signatures on
                      future HOME agreements were dated to support the commitment of funds
                      entered into HUD’s information system and that commitments were not
                      entered before the written agreements were executed (see finding).


                                                 10
                        APPENDIX

Appendix A

    AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation     Auditee Comments




Comment 1




                           11
12
                        OIG Evaluation of Auditee Comments


Comment 1   The County agreed with the finding recommendations and commented that it will
            implement procedures to address them.




                                          13
